                                                                                                  Office of lns~~ecioi-
                                                                                                                    Gei.ieixil

                                                                                                  L.S. Department of Homeland SecuriQ
                                                                                                  Eastern Region
                                                                                                  Office of Disaster Ass~stanceOvers~ght
                                                                                                  10 Tenth Street, Su~te750
                                                                                                  Atlanta, Georg~a30309


                                                                                   *
                                                                                  *i
                                                                                             '
                                                                                                 Homeland
                                                                                  8
                                                                                  _>
                                                                                                 Security
                                                       November 16,2006


MEMORANDUM FOR:                          Scott Morris
                                         Director
                                         FEMA's Florida Long- Term Recovery Office
                                         Orlando, Florida

FROM:                                    C. David Kimble
                                         Director
                                         Eastern Regional Office

SUBJECT:                                 Review of Hurricane Wilma Activities
                                         City of Port Saint Lucie, Florida
                                         FEMA Disaster No. 1609-DR-FL
                                         Report Number DA-07-04

We performed an interim review of emergency services and debris removal costs associated with
Hurricane Wilma activities for the City of Port Saint Lucie, Florida. The objective of the review was
to determine whether the city was properly accounting for disaster-related costs and whether such
costs were eligible for funding under FEMA's public assistance program. We analyzed the city's
accounting system, reviewed its disaster costs and contracting policies and procedures, and
interviewed FEMA, city, and contractor officials.

The city received an award of $4.0 million from the Florida Department of Community Affairs, a
FEMA grantee, for emergency protective measures and debris removal. The award provided FEMA
funding for eight large projects and ten small projects1. We limited our review to the $3.9 million
awarded under seven large projects, as follows:


                           Project     Approved Scope of Work                               Amount Awarded
                           3367        Debris Removal                                            $2,053,554
                           3463        Monitoring Debris Removal Services                           429,405
                           719         Emergency Protective Measures                                 64,556
                           4741        Emernencv
                                            -   , Protective Measures                               348.4 19
                           4768        Eniernencv Protective Measures
                                             u     ,
                                                                                                    385.429
                           484 1       Emergency Protective Measures                                178,744
                           5098        Emergency Protective Measures                                419,705
                           Total                                                                     $3,879,812



' Federal regulations in effect at the time of the disaster set the large project threshold at $57,500
As of May 30,2006, the cut-off date of our review, the city had recorded $2.8 million in project
expenditures and had received $2,495,144 of FEMA funds.

                                                RESULTS OF REVIEW

The city lacked an effective system for accounting for disaster-related costs and did not comply with
federal procurement standards when contracting for debris removal monitoring services. Moreover,
the city's project expenditures contained $623,459 of costs that are ineligible for FEMA funding.

A. Weak Proiect Accounting. Federal regulation (44 CFR 5 206.205) requires recipients to
   separately account for FEMA funds awarded under each project. However, the city did not
   establish a separate cost code or account for the seven projects included in the $3.9 million
   award. Expenditures for the projects were commingled with non-disaster costs in general ledger
   accounts for various city departments (public works, police, fire, etc.). Although the city
   compiled invoices and other documentation in support of project expenditures, the absence of a
   separate expenditure account for each project, with the recording of each expenditure and
   reference to supporting documentation, renders the accuracy of the city's grant accounting
   questionable.

B. Improper Contracting Practice. Federal regulation (44 CFR 513.36) requires subgrantees to
   conduct all procurement transactions under federal grants in a manner that provides full and open
   competition2. The regulation also requires subgrantees to perform a cost or price analysis in
   connection with every procurement action, including contract modifications, to determine the
   reasonableness of the proposed contract price.

    The city, however, did not comply with these requirements when awarding a contract for
    $466,703 for debris monitoring services. Rather than solicit competitive bids, the city retained an
    engineering firm, with whom it had an existing contract, to monitor the activities of debris
    removal contractors. Under that contract, the firm was providing professional engineering
    services related to the inspection of construction work on city streets. Moreover, the city paid the
    firm based on the engineering rates in the existing contract without analyzing such rates to
    determine whether they were reasonable for the nature of work performed by debris monitors. As
    a result of the city's actions, less than full and open competition occurred and FEMA has no
    assurance that the debris monitoring services were obtained at the best price.

    Although the city failed to comply with applicable federal procurement regulations, the contract
    costs may be reasonable. We compared the hourly rates paid by the city to those paid by nearby
    communities that had contracted for similar debris monitoring services using a competitive
    process. This analysis showed the rates to be comparable to those paid by the other communities.
    Accordingly, we are not recommending disallowance of any costs due to the city's failure to
    comply with federal procurement regulations.




'Non-competitive procurement may be used only under certain circumstances (44 CFR 13.36(d)(4)(i), one of which is when the
public exigency or emergency for the requirement will not pennit a delay resulting from competitive solicitation. FEMA has
detennined that non-competitive contracts cannot be justified when contracting for long-tenn debris removal activities (FEMA Policy
No. 9580.4, dated January 19, 2001).
C. Ineligible Regular-time Labor Costs. Federal regulation (44 CFR 5 206.228) allows for overtime
   salaries, but not straight or regular-time salaries of permanent employees who perform debris
   removal and emergency services work. However, the city's project expenditures included
   $447,116 of regular-time salaries for permanent city e~nployeeswho performed emergency
   services work. The affected projects and related costs are, as follows:


                            Project   Amount Claimed     Amount Ineligible
                            5098          $ 340.409              $275.798


                            Total           $1,074,257            $447,116



D. Debris Removal Charges for Federal-Aid Roads. According to the Stafford Act (Section 3 12),
   FEMA h n d s cannot be used for activities covered by other federal sources. Under projects
   number 3367 and 3463, FEMA previously disallowed $153,152 and $23,191, respectively, for
   costs associated with removing debris from federal-aid roads, which are the responsibility of the
   Federal Highway Administration (FHWA). However, during our review we noted that the city
   had not removed those costs in its compilation of expenditures under the projects. As a result, the
   previously disallowed costs could be inadvertently funded by FEMA when the city submits final
   project costs during the closeout process.

                                      RECOMMENDATIONS

We recommend that the Director of the Florida Long Term Recovery Office, in conjunction with the
grantee:

   1. Instruct the city, for future declarations, to establish and maintain separate accountability for
      expenditures under each FEMA project, and to comply with federal procurement regulations
      when awarding contracts for FEMA-funded activities.

   2. Disallow the $447,116 of regular-time salary costs related to emergency work.

   3. Inform the city that it should remove the previously disallowed debris removal costs of
      $176,343 associated with federal-aid roads from FEMA project expenditures, and seek
      reimbursement of those costs from FHWA.
                   DISCUSSION WITH MANAGEMENT AND FOLLOW-UP

We discussed the results of our review with city officials on August 16,2006, and with FEMA and
grantee officials on August 16, 2006. City officials concurred with our findings.

Please advise me within 30 days of actions you take or plan to implement the recommendations.
Your response should be sent to:

                      U.S. Department of Homeland Security
                      Office of Inspector General - Audit
                      The Millennium Midtown
                      10 Tenth Street, N.E., Suite 750
                      Atlanta, Georgia 30309

The nature and brevity of this assignment precluded the use of our normal audit protocols.
Therefore, we did not collduct this review according to generally accepted government auditing
standards. Had we followed such standards, other matters may have come to our attention.

We conducted this review in conjunction with the President's Council on Integrity and Efficiency
(PCIE) as part of its examination of relief efforts provided by the Federal government in the
aftermath of Hurricanes Katrina, Rita, and Wilma. As such, a copy of the report has been forwarded
to the PCIE Homeland Security Working Group, which is coordinating Inspectors' General reviews
of this important subject.

Should you have any questions concerning this report, please contact me at (404) 832-6700.

cc: Chief Procurement Officer, DHS
    Chief Financial Officer, DHS
    Deputy Director, Gulf Coast Recovery
    Audit Liaison, DHS
    Audit Liaison, FEMA
    Regional Director, Region IV
